CERTIFICATE OF SERVICE
NO. 19-368, 19-369
Ford Motor Company
Petitioner(s)
v.
Montana Eighth Judicial District Court, et al.; and Adam Bandemer
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CENTER
FOR AUTO SAFETY AMICUS AT MERITS STAGE IN SUPPORT OF RESPONDENT(S), by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Sean Marotta
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-4881
sean.marotta@hoganlovells.com
Counsel for Ford Motor Company

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
Counsel for Charles Lucero,
personal representative of the
Estate of Markkaya Jean Gullett

Kyle Wayne Farrar
Kaster, Lynch, Farrar & Ball LLP
1117 Herkimer Street
Houston, TX 77008
(713) 221-8300
Kyle@fbtrial.com
Counsel for Adam Bandemer

Lucas DeDeus

April 3, 2020
SCP Tracking: Coben-8700 E. Vista Bonita Drive-Cover Dark Green

